W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1584

Sheila Holmes

General Dynamics Mission Systems, Inc.
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Zachary C. Schauf

Date:

6/11/21

(Type or print) Name

Digitally signed by: Zachary C. Schauf
DN: CN = Zachary C. Schauf email = zschauf@jenner.com C = AD O = Jenner and Block
Date: 2021.06.11 06:54:31 -04'00'

Zachary C. Schauf
Mr.

Ms.

Firm

Jenner & Block LLP

Address

1099 New York Avenue, NW

City & State

Washington, DC

Phone

202-424-9309

Mrs.

Miss

Zip 20001
Email

zschauf@jenner.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Richard Franklin Hawkins III
The Hawkins Law Firm, PC
2222 Monument Ave.
Richmond, VA 23220

